~~
I

C@QCKLE

Lega ] Bri fs E-Mail Address:
8 € contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1108
DERAY MCKESSON,
Petitioner,
v.
JOHN DOE,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE RUTHERFORD INSTITUTE AS AMICUS
CURIAE SUPPORTING PETITIONER in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

JOHN W. WHITEHEAD
DOUGLAS R. MCKUSICK

THE RUTHERFORD INSTITUTE
109 Deerwood Road
Charlottesville, VA 22911

ERIN GLENN BUSBY
Counsel of Record

LISA R. ESKOW

MICHAEL F. STURLEY
UNIVERSITY OF TEXAS

(434) 978-3888 SCHOOL OF LAW
SUPREME COURT CLINIC
727 East Dean Keeton
Street
Austin, TX 78705
(713) 966-0409
ebusby@law.utexas.edu

Subscribed and sworn to before me this 9th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

eaearen| Aire 0 Ysa? Quad Ghd
ie My Comm. Exp. September §, 2023

Notary Public 7 Affiant 39625

   
SERVICE LIST

David Thomas Goldberg

Counsel of Record
Donahue, Goldberg, Weaver & Littleton
109 South Fifth Street, Suite 4201
Brooklyn, NY 11249
212-334-8813
david@donahuegoldberg.com
Counsel for Petitioner

Donna Unkel Grodner, Esq.
Counsel of Record
Grodner & Associates, A.P.L.C.
2223 Quail Run Drive, Suite B1
Baton Rouge, LA 70808-0000
225-769-1919
dgrodner@grodnerlaw.com
Counsel for Respondent
